      Department of Homeland Security




            Management Letter for U.S. Customs and 

            Border Protection’s FY 2012 Consolidated 

                      Financial Statements





OIG-13-48                                         March 2013
                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      MAR 25 2013

MEMORANDUM FOR:              Deborah J. Schilling
                             Chief Financial Officer
                             U.S. Customs and Border Protection

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Management Letter for U.S. Customs and Border
                             Protection’s FY 2012 Consolidated Financial Statements


Attached for your information is our final report, Management Letter for U.S. Customs
and Border Protection’s FY 2012 Consolidated Financial Statements. This report contains
observations and recommendations related to internal control deficiencies that were
not required to be reported in the Independent Auditors’ Report on U.S. Customs and
Border Protection’s FY 2012 Financial Statements. Internal control deficiencies, which
are considered significant deficiencies were reported, as required, in the Independent
Auditors’ Report, dated January 25, 2013, which was included in U.S. Customs Border
Protection’s (CBP) Fiscal Year 2012 Performance and Accountability Report. We do not
require management’s response to the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of CBP’s FY 2012
consolidated financial statements and is responsible for the attached management
letter dated February 27, 2013, and the conclusions expressed in it. We do not express
opinions on CBP’s financial statements or internal control, nor do we provide
conclusions on compliance with laws and regulations.

Please call me with any questions, or your staff may contact, Mark Bell, Deputy Assistant
Inspector General for Audits, at (202)254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




February 27, 2013


Inspector General and Chief Financial Officer
U.S. Department of Homeland Security
Washington, DC


Chief Financial Officer
U.S. Customs and Border Protection


Ladies and Gentlemen:

We have audited the consolidated balance sheets of the U.S. Customs and Border Protection
(CBP), a Component of the U.S. Department of Homeland Security (DHS), as of September 30,
2012 and 2011, and the related consolidated statements of net cost, changes in net position, and
custodial activity, and the combined statements of budgetary resources (hereinafter, referred to as
“consolidated financial statements”) for the years then ended. In planning and performing our
audit of CBP’s consolidated financial statements, we considered CBP’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing our
opinion on the consolidated financial statements.
In connection with our fiscal year (FY) 2012 audit engagement, we considered CBP’s internal
control over financial reporting by obtaining an understanding of CBP’s internal controls,
determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls in order to determine our procedures. We limited our internal control
testing to those controls necessary to achieve the objectives described in Government Auditing
Standards and the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit engagement was not to provide an opinion on the
effectiveness of CBP’s internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of CBP’s internal control over financial reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report included internal control deficiencies identified
during our audit, that individually, or in aggregate, represented a material weakness or a significant
deficiency.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We also noted certain matters involving internal control and other operational matters that are less
severe than a material weakness or a significant deficiency, and consequently are reported
separately to the Office of Inspector General (OIG) and CBP management in this letter. These
comments and recommendations, all of which have been discussed with the appropriate members
of management, are intended to improve internal control or result in other operating efficiencies.
The matters listed in the Table of Financial Management Comments of this letter provide our
observations for your consideration. The disposition of each internal control deficiency identified
during our FY 2012 audit – as either reported in our Independent Auditors’ Report, or herein – is
presented in Appendix A. The status of internal control deficiencies identified during our FY 2011
audit is presented in Appendix B. Our findings related to information technology systems have
been presented in a separate letter to the OIG and the CBP Chief Information Officer.
CBP’s written response to our comments and recommendations, presented in Appendix C, has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS and CBP management, the DHS Office of
Inspector General, the OMB, the U.S. Congress, and the Government Accountability Office, and is
not intended to be and should not be used by anyone other than these specified parties.


Very truly yours,
                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2012




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)
Comment
Reference   Subject                                                                              Page
FMC 12-01   Lack of Implementation of Controls over Determining Classification of Leases         2

FMC 12-02   Automated Commercial System (ACS) Deficiency over the Accumulation of                2

            Accelerated Payments against a Drawback Bond

FMC 12-03   Weaknesses in Controls over Timely Processing of Goods and Services Received         2

FMC 12-04   Insufficient Review of ACS and User Fee Database Reconciliation                      3

FMC 12-05   Deficiencies in the Public and Confidential Financial Disclosure Reporting Process   4

FMC 12-06   Deficiencies in the Performance Management Program                                   4

FMC 12-07   Insufficient Review of the Consolidated Omnibus Budget Reconciliation Act            5

            (COBRA) User Fees (CUF) and Immigration User Fees (IUF) Accounts Receivable 

            Estimate

FMC 12-08   Lack of Segregation of Duties over Collections and Deposits                          6

FMC 12-09   Weaknesses in the Trade Compliance Measurement (TCM) Program                         6

FMC 12-10   Deficiencies over Monitoring of Ethics Requirements                                  6

FMC 12-11   Untimely Undelivered Orders (UDOs) Quarterly Review                                  7

FMC 12-12   Weaknesses in Controls over Customs-Trade Partnership Against Terrorism (C-          7

            TPAT) Benefits

FMC 12-13   Lack of Verification of Refunds                                                      7

FMC 12-14   Weaknesses in Controls over the Bond Sufficiency Review Process                      8

FMC 12-15   Deficiencies in the Seized Inventory Process                                         9

FMC 12-16   Deficiencies in the Review of the Department of Labor (DOL) Chargeback Report        9

FMC 12-17   Weaknesses in CBP's Process Related to Recording Construction Percentage of          10

            Completion (POC) Amounts

FMC 12-18   Untimely De-obligation of UDOs and Weaknesses in Related Controls                    10

FMC 12-19   Deficiencies in the Review of Standard Form (SF)-52 Personnel Action Request         11

            Tracking System (PARTS) Actions

FMC 12-20   Deficiencies in the Review of Adjusting Journal Entries (JEs)                        11

FMC 12-21   Deficiencies in the Inventory and Related Property Process                           12

FMC 12-22   Deficiencies in Tracking CBP Leases                                                  12

APPENDICES
Appendix    Subject                                                                              Page
A           Crosswalk – Financial Management Comments to Active Notices of Finding and

            Recommendation (NFRs)                                                                14

B           Status of Prior Year Findings                                                        16

C           Management Response to the Draft Management Letter                                   18





                                                     1

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2012




Financial Management Comment (FMC) 12-01: Lack of Implementation of Controls over
Determining Classification of Leases (Notice of Finding and Recommendation (NFR) No. CBP-12­
02)

       CBP does not have a formal requirement to retain documentation to support the analysis and
       evaluation of all leases as either operating or capital for personal and Office of Information
       Technology (OIT) property. Therefore, there is no clear, auditable documentation evidencing
       how CBP determines if a personal property or OIT lease should be classified as operating or
       capital.

       Recommendations:

       We recommend that CBP:

       1.	 Prepare a personal property and OIT lease evaluation tool in accordance with Statements of
           Federal Financial Accounts Standards (SFFAS) No. 6 and Office of Management and Budget
           (OMB) Circular No. A-11.
       2.	 Update CBP’s lease directive to require the completion and retention of the personal property
           and OIT lease evaluation tool and establish related responsibilities.

FMC 12-02: Automated Commercial System (ACS) Deficiency over the Accumulation of
Accelerated Payments against a Drawback Bond (NFR No. CBP-12-03)

       ACS does not properly determine the sufficiency of continuous bonds. Specifically, the 

       automated control that prevents a claimant from exceeding the bond amount on file is not 

       operating effectively. As a result, CBP may not have sufficient surety against a drawback over 

       claim. Additionally, manual procedures are not in place to ensure the sufficiency of bonds.


       ACS remains the system of record for drawback claims and bonds. In fiscal year (FY) 2012, 

       CBP began developing a script within ACS, known as “ACP,” that will indicate the bond number,

       claimants listed on the bond, anniversary date of the bond, bond value, and a list of all drawback

       accelerated payments applied against the bond. However, the script has not been fully

       implemented within ACS.


       Recommendation:

       We recommend that CBP release the revised ACP script described above into production and 

       issue an updated memo to the drawback centers announcing the implementation of the ACP 

       script, along with instructions on how to use the script.


FMC 12-03: Weaknesses in Controls over Timely Processing of Goods and Services Received (NFR
Nos. CBP-12-07 and CBP-12-07b)

       We reviewed a statistical sample of 121 operating expense transactions. In 19 transactions, the
       receipt of goods or services was not recorded in the proper period.

       Contracting Officer’s Technical Representatives (COTRs) and goods receivers did not
       consistently enter goods receipt and service entry sheets timely into Systems, Applications, and
       Products (SAP), CBP’s financial reporting system. As a result, at year-end CBP must estimate

                                                   2

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2012



       accounts payable for goods or services received, but not yet entered into SAP. Although this
       estimation process is typically accurate, as evidenced by the search for unrecorded liabilities
       performed by CBP at the beginning of each fiscal year, CBP’s controls over the timely recording
       of goods and services receipt are not consistently applied throughout the year.

       In order to capture goods receipt/service entry sheets untimely entered, CBP uses both workflow
       messages and an on-demand SAP “parked invoice” report available to all receiving officials. A
       workflow message is sent to the receiver of goods when an invoice is input into SAP without a
       corresponding goods receipt. In addition, if this message is not addressed within five days, a
       subsequent message is sent to a budget official. CBP’s Commercial Accounts Section works the
       “parked invoice” report weekly and communicates with program offices to resolve open items.
       In addition, program level officers at CBP Headquarters are provided the “parked invoice” report
       each month, which allows them to monitor the items outstanding for their program office. These
       officials are responsible for distributing the report to their subordinate offices for action and
       implementing various levels of review procedures to ensure items are resolved. Beginning
       January 2012, SAP was enhanced to issue email messages to Contracting Officers when an
       invoice remained parked for eight days and another email message was issued when the invoice
       was still parked at fifteen days. In addition, CBP Directive 5220-040, Contract Invoice
       Processing and Payment Procedures, was issued January 26, 2012 to establish controls,
       guidance, and procedures for timely processing of contractors’ invoices and interim vouchers, to
       prevent interest penalties for late payments. However, these procedures are not performed until
       after the receipt of an invoice, which typically occurs after the receipt of goods or services.

       Recommendations:
       We recommend that CBP:
       1.	 Continue outreach efforts that provide guidance to receiving officials through conference
           calls and newsletters.
       2.	 Monitor the results of the annual Self Inspection worksheets to determine additional training
           needs.
       3.	 Provide Webinar training and target program offices that have consistently entered receiving
           information late.

FMC 12-04: Insufficient Review of ACS and User Fee Database Reconciliation (NFR No. CBP-12­
09)

       Insufficient review was performed over the December 2011 ACS-User Fee Database

       reconciliation. For the reconciliation of one class code, the amount of collections input on the 

       reconciliation was incorrect. As a result, the un-reconciled amount did not mathematically sum

       as indicated on the reconciliation. These errors were not identified during the review process; 

       however, the errors did not lead to a misstatement of the financial statements. 


       Recommendation:

       We recommend that CBP management perform a monthly review of the ACS-User Fee Database 

       reconciliations to ensure that mathematical inaccuracies are identified and corrected.





                                                    3

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2012



FMC 12-05: Deficiencies in the Public and Confidential Financial Disclosure Reporting Process
(NFR No. CBP-12-10)

       During testwork over a sample of 15 employees that filed Office of Government Ethics (OGE)
       Form 278, Executive Branch Personnel Public Financial Disclosure Report, in FY 2012, the
       following deficiency was identified:
       •	 Evidence of review and certification by the reviewing official within 60 days of the filing date
           for one of the OGE Form 278s could not be provided.

       During testwork over a sample of 45 employees that filed OGE Form 450, Executive Branch
       Personnel Confidential Financial Disclosure Report, in FY 2012, the following deficiencies were
       identified:
       •	 One employee did not complete the OGE Form 450 correctly and the inaccuracies were not
           identified and resolved during the review process.
       •	 Seven employees filed the OGE Form 450 after the required February 15th filing date.
       •	 Four OGE Form 450s were not signed by the Final Reviewing Official within 60 days of the
           filing date.

       Recommendations:
       We recommend that CBP:
       1.	 Ensure final reviewers of the OGE Form 278 are notified via email to manually select the
           filing by clicking on the “Submitted to Designated Agency Ethics Official (DAEO) w/out
           required signatures” button. The final reviewer may then access and complete their review
           and certification of the employee’s OGE Form 278. In addition, the email transmission from
           the “Supervisor” will remind the final reviewer to select the “End Initial Review” button once
           the review of the filing is complete to ensure that the audit trail in the Financial Disclosure
           Microflow contains the date that the initial review occurred.
       2.	 Continue the implementation of an automated OGE Form 450 filing process. The electronic
           OGE Form 450 is operational and will be utilized for both new entrant and annual OGE Form
           450s filers.

           Additionally, ensure system-generated email notifications are sent to employees in covered
           positions regarding their requirement to file, and to supervisors and final reviewers when a
           filing is ready for their review.

           Finally, utilize the electronic OGE Form 450 to provide program offices with the capability to
           monitor the status of filings for all filers within their organization throughout the filing
           process.

FMC 12-06: Deficiencies in the Performance Management Program (NFR No. CBP-12-11)

       During testwork over a sample of 15 Senior Executive Service (SES) performance plans, the
       following deficiency was identified:
       •	 One employee did not assign weights (i.e., numerical quantifications) to each employee-
           specific performance objective at the beginning of the performance appraisal period. After
           the issue was identified, weights were assigned to their employee-specific performance
           objectives prior to the year-end performance appraisal.

                                                   4

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2012




       During testwork over a sample of 45 Non-SES, Supervisory employee performance and appraisal
       plans, the following deficiencies were identified:
       •	 One employee did not have a mid-year review;
       •	 One employee did not have initial and mid-year performance meetings within the required
           timeframe; and
       •	 One employee did not have separate initial and mid-year performance meetings, but instead
           conducted one meeting outside of the initial and mid-year review timeframes.

       During testwork over a sample of 45 Non-SES, Non-Supervisory employee performance and
       appraisal plans, the following deficiencies were identified:
       •	 Evidence was not provided to support that one employee’s initial performance meeting had
           been conducted within the required timeframe;
       •	 One employee’s initial plan was not signed by a supervisory rating official within the required
           timeframe; and
       •	 One employee did not have an initial planning meeting or mid-year performance review
           within the required timeframes.

       Recommendations:
       We recommend that CBP:
       1.	 Non-SES Supervisory and employee programs continue implementation of the new
           performance management workflow (Human Resource Business Engine-Performance
           Management) that will allow the Labor and Employee Relations (LER) Policy Division to
           closely monitor the progress and timeliness of CBP program offices in their completion of
           employee performance plan processes. The Human Resource Business Engine-Performance
           Management workflow will allow the LER Policy Division to prepare reports for program
           offices to alert them of impending action requirements and deadlines. Additionally, CBP
           messaging to program offices concerning the initiation of performance plans, completion of
           mid-cycle performance reviews, and completion of final ratings of record should continue.
       2.	 Continue to reinforce the requirement to assign weights for employee-specific performance
           objectives to all SES individuals when the SES performance agreement for the new fiscal
           year is issued.

FMC 12-07: Insufficient Review of the Consolidated Omnibus Budget Reconciliation Act (COBRA)
User Fees (CUF) and Immigration User Fees (IUF) Accounts Receivable Estimate (NFR No. CBP­
12-13)

       An error on the March 2012 listing exported from the User Fee Database, which is used to
       generate the Accounts Receivable estimate, was not identified prior to recording the monthly
       Accounts Receivable accrual. The March 2012 listing of the average prior four quarters of
       collections by carrier was exported to Microsoft Excel and incorrectly stored several amounts as
       “text” instead of as “numbers”. Therefore, these amounts were not included in the total for the
       March 2012 Accounts Receivable estimate.

       Recommendation:
       CBP corrected the process to resolve the underlying issue with the assistance of an OIT
       programmer on September 11, 2012. The download now treats all data as “numbers” rather than

                                                   5

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2012



       “text”. This change was tested on September 13, 2012. In addition, future reviews of this report
       should include specifically checking the individual receivables to ensure this type of error does
       not occur.

FMC 12-08: Lack of Segregation of Duties over Collections and Deposits (NFR No. CBP-12-16)

       During testwork performed at 1 of the 11 statistically selected Ports of Entry, CBP was unable to
       provide evidence that an independent verifier confirmed that the deposit ticket subtotals and totals
       were correct by agreeing them to the cash on hand for two of the three daily collection files
       selected for testwork.

       Recommendation:
       We recommend that CBP’s Office of Administration continue to work with the Office of Field
       Operations (OFO) to ensure consistent execution of national policy set forth in the CBP
       Collections & Deposits Handbook (HB) 5300-12B.

FMC 12-09: Weaknesses in the Trade Compliance Measurement (TCM) Program (NFR No. CBP­
12-17)

       During testing performed at the 11 selected Ports of Entry, the following condition related to the
       TCM program was identified:
       •	 One port was unable to provide evidence that the monthly TCM database was reviewed in a
          timely manner and signed by a supervisor for all validation activities assigned to the port.

       Recommendation:
       We recommend that CBP’s OFO continue developing a remedial action plan to address the
       compliance finding and use the audit result as a guide for TCM process improvement at OFO and
       Area Ports. OFO is developing measures to improve documented evidence that the monthly
       TCM data are timely reviewed and vouched by the assigned port manager. Highlights of the
       action plan include: reissue of the Trade Compliance Measurement Policy Memo; TCM reports
       are downloaded and assigned a unique work number and due date in an automated tracker; the
       report and tracking number are assigned to area port management; port management vouch their
       validation reviews and voucher for the timely completion of the assigned TCM tasking through
       email; the OFO TCM Coordinator validates these findings using Automated Commercial
       Environment (ACE) reports; and OFO TCM findings along with the emails are reported to close­
       out the automated tracker for the period.

FMC 12-10: Deficiencies over Monitoring of Ethics Requirements (NFR No. CBP-12-21)

       During testwork performed over a sample of 45 new employees, the following instances of non­
       compliance with ethics training requirements were identified:
       •	 For nine employees, CBP was unable to provide evidence that the employee timely received
          ethics materials within 90 days of the employee's effective date of employment; and
       •	 For two employees, CBP was unable to provide evidence that the employee received ethics
          materials.



                                                    6

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2012



       Recommendation:
       We recommend that CBP continue to implement procedures for tracking the receipt of ethics
       information by new employees, including:
       1.	 Adding the “Acknowledgment of Receipt of Conduct Information” form to the checklist of
           “Required Employment Forms to Ensure Accurate Human Resources Data” that must be
           completed by the first day of employment.
       2.	 Completing the “Acknowledgment of Receipt of Conduct Information” forms and storing
           these forms on the temporary side of an employee’s electronic Official Personnel Folder.

FMC 12-11: Untimely Undelivered Orders (UDOs) Quarterly Review (NFR No. CBP-12-22)

       A deficiency was identified during the walkthrough performed over the first quarterly UDO
       review process. Specifically, three program offices submitted their Quarterly Certification letter
       to the National Finance Center after the 21 day deadline. The untimely submission ranged from 7
       days to 18 days after the deadline.

       Recommendation:
       We recommend that CBP continue to perform outreach to the points of contact in the program
       offices to obtain a status on the progress of the Quarterly Certification effort.

FMC 12-12: Weaknesses in Controls over Customs-Trade Partnership Against Terrorism (C­
TPAT) Benefits (NFR No. CBP-12-23)

       During testwork performed over a sample of 45 C-TPAT partners, the following instances of non­
       compliance with requirements for applying and removing benefits in ACS were identified:
       •	 One C-TPAT Partner had benefits that were not appropriately removed in ACS after being
          suspended from the C-TPAT program; and
       •	 Three C-TPAT Partners were entitled to benefits but did not have any benefits designated in
          ACS.

       During testwork performed over a sample of 45 C-TPAT Partners, the following instance of non­
       compliance with requirements for applying benefits in the Web Portal was identified:
       •	 One C-TPAT Partner had fewer benefits than it was entitled to in the Web Portal.

       Recommendation:
       We recommend that CBP continue to implement procedures to electronically link the benefits in
       Web Portal and ACS.

FMC 12-13: Lack of Verification of Refunds (NFR No. CBP-12-24)

       Customs Officers and port personnel did not verify the duties, fees, charges, or exactions
       deposited in excess prior to issuing the refund for 1 of 45 refunds sampled during testwork
       performed at the Ports of Entry. Specifically, port personnel issued the refund without
       confirming the Harmonized Tariff Schedule (HTS) number associated with the merchandise on
       the refund request. As a result, the port processed and issued a refund based on an expired HTS
       number. The refund did not result in an overpayment or under payment as the correct HTS


                                                   7

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2012



       number that should have been associated with the merchandise would have resulted in a refund of

       the same amount. 


       Recommendation:

       We recommend that CBP provide targeted communication to the noncompliant port to reinforce 

       the importance of the requirements listed in CBP Directive 3710-004B.


FMC 12-14: Weaknesses in Controls over the Bond Sufficiency Review Process (NFR No. CBP-12­
26)

       During testwork performed over 120 single transaction bond (STB) samples, the following
       instances of non-compliance with CBP Directive 3510-004 were identified:
       •	 For three STBs selected for bond sufficiency testwork, the total value of the bond was not
           sufficient to cover the total value of the merchandise being imported, plus all associated
           taxes, duties and fees.

       During testwork performed over 120 continuous bond sample items, the following instances of
       non-compliance with CBP Directive 3510-005 were identified:
       •	 For seven active continuous bonds, the bond amounts were insufficient as they were not
          greater than 10 percent of all duties, taxes and fees paid by the importer (or broker acting as
          the importer of record) during the previous bond year.
       •	 For two active continuous bonds, the Bond Liability Locate screen in ACS erroneously
          accumulated estimated duties, taxes and fees in a future bond year (2020 and 2021) due to a
          programming issue.

       In addition, the following weakness existed over the bond sufficiency process during FY 2012:
       •	 The Bond Sufficiency Report by Beginning Effective Date of Bond and the Bond Sufficiency
           Report by Ending Effective Date of Bond generated by the National Finance Center (NFC) do
           not factor in all duties, taxes, and fees paid by the importer during the previous bond year due
           to ACS system limitations. As a result, the report does not identify bonds that may be
           insufficient if the continuous bond amount is set lower than ten percent of all duties, taxes
           and fees paid by the importer (or broker acting as the importer of record), during the previous
           bond year.

       Recommendations:
       We recommend that CBP:
       1.	 Continue to provide direction to the field on the sufficient amount of STB coverage when
           STBs are required in cases where antidumping/countervailing duty (AD/CVD) evasion is
           suspected. When STBs are requested in such instances, ports are to request national cargo
           criteria to record the STB request. This will allow monitoring of the AD/CVD STBs. CBP
           should also continue to develop an e-bond module in ACE for the electronic submission of all
           STBs. E-bond should allow for electronic reporting on STB sufficiency.
       2.	 Continue to implement the Revenue Division’s modified monthly reports that capture
           insufficient bonds. This should resolve the issue that resulted in the seven bonds that were
           identified as insufficient from the sample of 120 continuous bonds.
       3.	 Work with OIT to resolve the two active continuous bonds that had future years (2020 and
           2021) on the Bond Liability Locate screen in ACS.

                                                    8

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2012




FMC 12-15: Deficiencies in the Seized Inventory Process (NFR No. CBP-12-27)

       During physical inventory observation procedures conducted at 10 seized property vaults, the
       following deficiencies were identified:
       •	 At one vault, the log book evidenced that only one person was present in the vault for a
           period of time for one of the five days selected for testwork. CBP’s policies and procedures
           require that two armed CBP Officers are present in the vault, when the vault is accessed.
       •	 At one vault, the amount listed on the CBP Form (CF) 6051, Custody Receipt for Seized
           Property and Evidence, did not agree with the amount listed in the Seized Asset and Case
           Tracking System (SEACATS) for one of the five CF-6051’s selected for testwork.
       •	 At one vault, one seizure in which the weight in the updated SEACATS inventory report did
           not agree to the amount recorded on the certified inventory count sheets for one of the 45
           items observed.

       Recommendations:

       We recommend that CBP:

       1.	 Issue a memorandum to the Directors of Field Operations and ports to inform them of the
           audit findings and remind them of the proper CBP policies and procedures that guide their
           activities concerning the custody, management, accountability of seized property, and
           updating SEACATS within the required time frames.
       2.	 Distribute a reminder to the field reinforcing vault access requirements.

FMC 12-16: Deficiencies in the Review of the Department of Labor (DOL) Chargeback Report
(NFR No. CBP-12-28)

       CBP’s Human Resource Management Office of Worker’s Compensation Programs (HRM­
       OWCP) does not perform a review of the Detailed Chargeback Report on a quarterly basis.
       Rather, a review of significant payments is performed approximately every twelve months.
       However, a review was not performed in FY 2012.

       Additionally, CBP was unable to provide support for 2 of the 45 CA-1, Notice of Traumatic
       Injury and Claim for Compensation, forms selected in the June 30, 2012 Federal Employees
       Compensation Act (FECA) claims sample.

       Recommendations:
       We recommend that CBP HRM-OWCP:
       1.	 Continue reviewing the Chargeback Reports as frequently as possible to identify erroneous
           claims and work with other Department of Homeland Security (DHS) components to request
           transfer of these cases and recover erroneous charges through the Intragovernmental Payment
           and Collection (IPAC) system.
       2.	 Continue implementation of the Occupational Safety and Workers’ Compensation Working
           Group (WCWG), efforts to study the program’s structure, including injury prevention, case
           management, return-to-work initiatives and review of the quarterly chargeback process.
       3.	 Address issues and logistics relative to retrieving claim forms and data entry of all active
           previous claims into eComp, CBP’s web-based electronic submission and case management
           system through the WCWG.

                                                   9

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                                  Financial Management Comments
                                        September 30, 2012




FMC 12-17: Weaknesses in CBP's Process Related to Recording Construction Percentage of
Completion (POC) Amounts (NFR No. CBP-12-29)

       The following weakness was identified in the controls over CBP’s financial recording of the POC
       in FY 2012:
       •	 Lack of an internal review process in the first quarter to determine if all POC amounts were
           reported correctly. Five projects were inadvertently omitted from the POC accrual due to a
           miscommunication between Facilities, Management, and Engineering (FM&E) and the
           Capital Assets Section (CAS). Subsequently, the projects were reported and included
           correctly in the POC accrual for the remainder of the fiscal year.

      Recommendation:

      We recommend that CBP continue to implement the updated FY 2012 FM&E policies.


FMC 12-18: Untimely De-obligation of UDOs and Weaknesses in Related Controls (NFR No. CBP
12-30)

       During our testwork over CBP’s active and inactive UDO balances as of August 31, 2012, we
       selected a statistical sample of 331 UDOs and identified weaknesses in CBP’s monitoring of
       these obligations. Specifically, the following deficiencies were identified:
       •	 Six instances, totaling $3.8 million, in which UDOs were no longer valid and had not been
           de-obligated, or identified for de-obligation.
       •	 Two instances, ranging from 5 to 32 months, in which the period of performance had expired
           prior to the execution of the next modification.
       •	 One instance in which the contracting officer authorized a modification for a dollar value
           greater than the contracting officer’s warrant authority.
       •	 Five instances in which an Invoice Receipt (IR) variance was corrected via an “MR11”
           transaction in SAP. Due to the program design of SAP, the “MR11” transaction is the only
           option available to correct a service entry sheet variance. Although the UDO balance is still
           valid, the “MR11” transaction returned the excess funds to either general ledger account
           4610, Allotments – Realized Resources, or 4650, Allotments – Expired Authority. As a result,
           the UDO balance is understated by a total of $135,000. Furthermore, the “MR11”
           transaction, which is essentially a de-obligation, is not reflected in general ledger account
           4871, Downward Adjustments of Prior-Year Unpaid Undelivered Orders – Obligations,
           Recoveries, or 4971, Downward Adjustments of Prior-Year Unpaid Delivered Orders –
           Obligations, Recoveries. As such, the Recoveries line item on the Statement of Budgetary
           Resources (SBR) is understated and the transaction is not compliant with the United States
           Standard General Ledger.

       As a result of the “MR11” transaction errors identified above, an SAP report was obtained that
       identified all of the “MR11” transactions recorded during FY 2012. Based on an analysis
       performed of this report, it was determined that the Recoveries line item on the SBR is
       understated by approximately $13 million.




                                                  10

                                   Department of Homeland Security
                                  U.S. Customs and Border Protection
                                   Financial Management Comments
                                         September 30, 2012



       During our testwork over CBP’s UDO balance activity during the month of September 2012, we
       selected a statistical sample of 102 UDOs and identified weaknesses in CBP’s monitoring of
       these obligations. Specifically, the following deficiencies were identified:
       •	 One instance, related to two sample items, in which the period of performance had expired by
           approximately one month prior to the execution of the next modification.
       •	 One instance in which the UDO balance was not valid because the obligation was established
           in SAP on September 19, 2012; however, the Reimbursable Work Agreement (RWA) was
           not authorized and executed until FY 2013. As such, the UDO balance was overstated by
           $607,000.

       Recommendations:
       We recommend that CBP:
       1.	 Emphasize better communication between the Contracting Officer (CO) and Contracting
           Officer Representative (COR) to obtain a de-obligation request when appropriate. In
           addition, complete the review and implementation of the revised CBP Directive No. 1220­
           011E, Reviews of Un-liquidated Obligations and Open Goods/Service Receiving Records.
       2.	 Continue to monitor the period of performance, especially the end date, on active contract
           actions to avoid lapses and ensure SAP is updated with the current period of performance end
           date.
       3.	 Continue to enforce the warrant authority policy and conduct a random review of award
           documents to ensure compliance.
       4.	 Reevaluate the MR11 business process to determine if the MR11 procedures or SAP postings
           need to be modified.
       5.	 Communicate the procedure for processing RWA obligations to applicable staff and monitor
           this process to ensure compliance.

FMC 12-19: Deficiencies in the Review of Standard Form (SF)-52 Personnel Action Request
Tracking System (PARTS) Actions (NFR No. CBP-12-31)

       During testwork performed over 45 PARTS actions, one PARTS action requiring higher-level
       approval was processed without receiving higher-level approval. Specifically, the PARTS action
       related to OFO (organizational code CU13##) requesting a personnel action for reassignment
       (personnel action code RA) requires higher-level approval, but higher-level approval was not
       obtained before the PARTS action was processed.

       Recommendations:
       We recommend that CBP’s Hiring Center:
       1.	 Ensure that all Staffing Specialists understand the business rules, which require higher-level
           approval when using certain personnel action codes; and
       2.	 Monitor PARTS actions to ensure the business rules are being properly applied.

FMC 12-20: Deficiencies in the Review of Adjusting Journal Entries (JEs) (NFR No. CBP-12-32)

       During testwork performed over 131 standard voucher transactions as of June 30, 2012, one
       standard voucher was reversed without receiving proper supervisory approval. Specifically, the
       topside entry recorded in FY 2011 to account for custodial activity for Puerto Rico was reversed
       in FY 2012 by a Staff Accountant without obtaining supervisory approval.

                                                   11

                                    Department of Homeland Security
                                   U.S. Customs and Border Protection
                                    Financial Management Comments
                                          September 30, 2012




       Recommendation:
       We recommend that CBP modify the Regulatory Reports Section’s Standard Operating
       Procedures to require review and approval for the reversal of JEs.

FMC 12-21: Deficiencies in the Inventory and Related Property Process (NFR No. CBP-12-33)

       During testwork performed at one of the five selected Office of Air and Marine (OAM) sites
       performing an annual inventory, the following discrepancy was identified:
       •	 An inventory item listed on the count sheet was not physically located on the floor. Upon
           review, the inventory supervisor determined that the part had been shipped for repair on July
           6, 2012, which was prior to the annual inventory. However, the certified count sheets
           received in the completion package reflected an inventory count of one rather than zero.

       During testwork performed over CBP’s Certification of OAM Physical Inventories performed for
       all 34 sites, the following discrepancy was identified:
       •	 One inventory site did not certify its inventory. Upon review, it was determined that the nine
            items listed as located at this site are actually located at a different site. Furthermore, it was
            determined that the nine items were counted during the second site’s annual inventory and
            were identified during the inventory as having the incorrect location code. However, the
            location code for these nine items was not appropriately updated upon completion of the
            inventory.

       Recommendations:
       We recommend that CBP:
       1.	 Ensure inventory count sheets at the locations accurately reflect inventory data.
       2.	 Ensure inventory data in the systems accurately reflect results of inventory counts.

FMC 12-22: Deficiencies in Tracking CBP Leases (NFR No. CBP-12-34)

       During testwork performed to verify the completeness of CBP’s September 30, 2012 lease
       population, a sample of 25 lease payments was selected. The following discrepancies were
       identified:
       •	 Five instances in which a payment was made for a cancellable personal property lease
           agreement in which the lease agreement did not appear in CBP’s listing of leases as of
           September 30, 2012.

       Additionally, CBP cannot confirm that it has accounted for all of its personal and real property
       leases. Though a majority of CBP’s real and personal property leases are considered to be
       cancellable, thus minimizing the overall impact on the Leases footnote, the footnote could be
       inaccurate because CBP is not aware of all of its existing leases.

       Recommendations:
       We recommend that CBP:
       1.	 Ensure all Property, Plant, and Equipment procured through leases are properly recorded in
           SAP.


                                                     12

                           Department of Homeland Security
                          U.S. Customs and Border Protection
                           Financial Management Comments
                                 September 30, 2012



2.	 In conjunction with efforts to implement the lease scoring tool, utilize the Object
    Classification Code/Material Classification Code to create SAP asset shell records for assets
    procured through lease.




                                           13

                                                                                                 Appendix A
                              U.S. Customs and Border Protection
                  Crosswalk – Financial Management Comments to Active NFRs
                                      September 30, 2012



                                                                          Disposition*
                                                              Independent Auditors’ Report        FMC
  NFR                                                      Material  Significant      Non-
                            Description
 Number                                                    Weakness Deficiency Compliance        Number
             Automated Commercial System (ACS)
             Limitations – Review of Prior Related
CBP-12-01                                                     A
             Drawback Claims and Selectivity for
             Underlying Consumption Entries
             Lack of Implementation of Controls over
CBP-12-02
             Determining Classification of Leases
                                                                                                  12-01
             ACS Deficiency over the Accumulation of
CBP-12-03    Accelerated Payments against a Drawback                                              12-02
             Bond
             Insufficient Retention Period for Documents
CBP-12-04                                                     A
             that Support Drawback Claims
             Improper Settlement of Assets, including
             Untimely Capitalization of Assets from
CBP-12-05                                                                B
             Construction in Progress (CIP) as of
             4/30/2012
             Improper Settlement of Assets, including
CBP-12-05b   Untimely Capitalization of Assets from CIP                  B
             as of 7/31/2012 and 9/30/2012
             Weaknesses in CBP’s Process Related to
CBP-12-06                                                                B
             Asset Additions as of 4/30/2012
             Weaknesses in CBP's Processes Related to
             Asset Additions and Classification of
CBP-12-06b   Property, Plant, and Equipment (PP&E)                       B
             related transactions as of 7/31/2012 and
             9/30/2012
             Weaknesses in Controls over Timely
CBP-12-07    Processing of Goods and Services Received                                            12-03
             as of 3/31/2012
             Weaknesses in Controls over Timely
CBP-12-07b   Processing of Goods and Services Received                                            12-03
             as of 7/31/2012 and 9/30/2012
             Weaknesses in CBP's Process Related to
CBP-12-08                                                                B
             Asset Disposals as of 4/30/2012
             Weaknesses in CBP's Process Related to
CBP-12-08b                                                               B
             Asset Disposals as of 7/31/2012
             Insufficient Review of ACS and User Fee
CBP-12-09
             Database Reconciliation
                                                                                                  12-04
             Deficiencies in the Public and Confidential
CBP-12-10
             Financial Disclosure Reporting Process
                                                                                                  12-05
             Deficiencies in the Performance Management
CBP-12-11
             Program
                                                                                                  12-06
                                                                                  Compliance
             ACS Deficiencies over Non-Entity Accounts
                                                                                 Determined at
CBP-12-12    Receivable and CBP's Ability to Effectively
                                                                                  Department
             Monitor Collection Actions
                                                                                     Level
             Insufficient Review of the Consolidated
             Omnibus Budget Reconciliation Act
CBP-12-13    (COBRA) User Fees (CUF) and Immigration                                             12-07
             User Fees (IUF) Accounts Receivable
             Estimate
CBP-12-14    Detection of Excessive Drawback Claims           A


                                                     14

                                                                                                            Appendix A
                                      U.S. Customs and Border Protection
                          Crosswalk – Financial Management Comments to Active NFRs
                                              September 30, 2012



                                                                                      Disposition*
                                                                        Independent Auditors’ Report         FMC
         NFR                                                         Material  Significant      Non-
                                     Description
        Number                                                       Weakness Deficiency Compliance         Number
                    Lack of System Integration and Compliance                                Compliance
                    with the United States Standard General                                 Determined at
      CBP-12-15
                    Ledger at the Transaction Level Related to                                Department
                    Inventory and Related Property, Net                                         Level
                    Lack of Segregation of Duties over
      CBP-12-16
                    Collections and Deposits
                                                                                                            12-08
                    Weaknesses in the Trade Compliance
      CBP-12-17
                    Measurement (TCM) Program
                                                                                                            12-09
      CBP-12-18     Deficiencies in the In-Bond Process                              C
                    Weaknesses in the Review of Entry
      CBP-12-19                                                                      C
                    Edit/Exception Reports
      CBP-12-20     Management Oversight of PP&E                                     B
                    Deficiencies over Monitoring of Ethics
      CBP-12-21
                    Requirements
                                                                                                            12-10
                    Untimely Undelivered Orders (UDOs)
      CBP-12-22
                    Quarterly Review
                                                                                                            12-11
                    Weaknesses in Controls over Customs-Trade
      CBP-12-23     Partnership Against Terrorism (C-TPAT)                                                  12-12
                    Benefits
      CBP-12-24     Lack of Verification of Refunds                                                         12-13
                    Weaknesses Identified in the Bonded
      CBP-12-25     Warehouse and Foreign Trade Zone                                 C
                    Processes and Procedures
                    Weaknesses in Controls over the Bond
      CBP-12-26                                                                                              12-14
                    Sufficiency Review Process
      CBP-12-27     Deficiencies in the Seized Inventory Process                                             12-15
                    Deficiencies in the Review of the Department
      CBP-12-28                                                                                              12-16
                    of Labor (DOL) Chargeback Report
                    Weaknesses in CBP's Process Related to
      CBP-12-29     Recording Construction Percentage of                                                     12-17
                    Completion (POC) Amounts
                    Untimely De-obligation of UDOs and
      CBP-12-30                                                                                              12-18
                    Weaknesses in Related Controls
                    Deficiencies in the Review of Standard Form
      CBP-12-31     (SF)-52 Personnel Action Request Tracking                                                12-19
                    System (PARTS) Actions
                    Deficiencies in the Review of Adjusting
      CBP-12-32                                                                                              12-20
                    Journal Entries (JEs)
                    Deficiencies in the Inventory and Related
      CBP-12-33                                                                                              12-21
                    Property Process
      CBP-12-34     Deficiencies in Tracking CBP Leases                                                      12-22

*Disposition Legend:

FMC       Financial Management Comment


Cross-reference to the applicable sections of the Independent Auditors’ Report:

A         Drawback of Duties, Taxes, and Fees
B         Property, Plant, and Equipment
C         Entry Process


                                                               15
                                                                                                Appendix B
                               U.S. Customs and Border Protection
                                 Status of Prior Year Findings
                                      September 30, 2012




                                                                                      FY12 Disposition
FY11 NFR
                                         Description                                       Repeat (FY12
   No.                                                                             Closed
                                                                                             NFR No.)
CBP-11-01    Certification of Refund and Drawback Payments                           X
             Insufficient Retention Period for Documents that Support Drawback
CBP-11-02                                                                                   CBP-12-04
             Claims
             Automated Commercial System (ACS) Deficiency over the
CBP-11-03                                                                                   CBP-12-03
             Accumulation of Accelerated Payments Against a Drawback Bond
             ACS Limitations – Review of Prior Related Drawback Claims and
CBP-11-04                                                                                   CBP-12-01
             Selectivity for Underlying Consumption Entries
             ACS Deficiencies over Non-Entity Accounts Receivable and CBP’s
CBP-11-05                                                                                   CBP-12-12
             Ability to Effectively Monitor Collection Actions
             Lack of System Integration and Compliance with the United States
CBP-11-06    Standard General Ledger at the Transaction Level Related to                    CBP-12-15
             Inventory and Related Property, Net
             Weaknesses in CBP's Process Related to Asset Additions and
CBP-11-07    Classification of Property, Plant, and Equipment (PP&E) Related                CBP-12-06
             Transactions as of 4/30/2011
             Weaknesses in CBP's Process Related to Asset Additions and
CBP-11-07b   Classification of PP&E Related Transactions as of 7/31/2011 and                CBP-12-06b
             9/30/2011
             Improper Settlement of Assets, Including Untimely Capitalization of
CBP-11-08                                                                                   CBP-12-05
             Assets from Construction in Progress (CIP) as of 4/30/2011
             Improper Settlement of Assets, Including Untimely Capitalization of
CBP-11-08b                                                                                  CBP-12-05b
             Assets from CIP as of 7/31/2011 and 9/30/2011
             Weaknesses in CBP's Process Related to Asset Disposals as of
CBP-11-09                                                                                   CBP-12-08
             4/30/2011
             Weaknesses in CBP's Process Related to Asset Disposals as of
CBP-11-09b                                                                                  CBP-12-08b
             7/31/2011 and 9/30/2011
             Lack of Controls over Timely Processing of Goods and Services
CBP-11-10                                                                                   CBP-12-07
             Received as of 3/31/2011
             Lack of Controls over Timely Processing of Goods and Services
CBP-11-10b                                                                                  CBP-12-07b
             Received as of 7/31/2011 and 9/30/2011
             Weaknesses in the Monitoring and Review Process over Fines,
CBP-11-11                                                                            X
             Penalties, and Forfeitures (FP&F) cases
             Lack of Implementation of Controls over Determining Classification
CBP-11-12                                                                                   CBP-12-02
             of Leases
CBP-11-13    Weaknesses in the Review of Weekly Entry Edit/Exception Reports                CBP-12-19
CBP-11-14    Lack of Evidence of Review of the D28 Alert Report                      X
CBP-11-15    Detection of Excessive Drawback Claims                                         CBP-12-14
CBP-11-16    Deficiencies in the In-Bond Process                                            CBP-12-18
CBP-11-17    Deficiencies in the Public Financial Disclosure Reporting Process              CBP-12-10
CBP-11-18    Deficiencies in the Performance Management Program                             CBP-12-11
CBP-11-19    Weaknesses in Controls over Automated Journal Entries (JEs)             X
CBP-11-20    Weaknesses in Controls over the Bond Sufficiency Review Process                CBP-12-26
CBP-11-21    Incorrect use of CBP Overtime Scheduling System Codes                   X
             Lack of Formal Process for Determining Required Supervisory
CBP-11-22                                                                            X
             Reviews


                                                   16

                                                                                           Appendix B
                             U.S. Customs and Border Protection
                                Status of Prior Year Findings
                                     September 30, 2012



                                                                                 FY12 Disposition
FY11 NFR
                                       Description                                    Repeat (FY12
   No.                                                                        Closed
                                                                                        NFR No.)
CBP-11-23   Deficiencies over Monitoring of Ethics Requirements                        CBP-12-21
            Weaknesses in the Quarterly Undelivered Orders (UDO) Review
CBP-11-24                                                                              CBP-12-22
            Process
            Weaknesses Identified in the Bonded Warehouse and Foreign Trade
CBP-11-25                                                                              CBP-12-25
            Zone Processes and Procedures
CBP-11-26   Weaknesses in the Trade Compliance Measurement (TCM) Program               CBP-12-17
CBP-11-27   Management Oversight of PP&E                                               CBP-12-20
CBP-11-28   Untimely De-obligation of UDOs                                             CBP-12-30
            Weaknesses in CBP's Process Related to Recording Construction
CBP-11-29                                                                              CBP-12-29
            Percentage of Completion (POC) Amounts
CBP-11-30   Weaknesses in CBP's Payroll Reconciliation Process                  X
CBP-11-31   Insufficient Review of Manual Journal Entries                       X
            Deficiencies in the Review of the Department of Labor (DOL)
CBP-11-32                                                                              CBP-12-28
            Chargeback Report




                                                 17

                                                                                                            Appendix C
                             U.S. Customs and Border Protection
              Management Response to the Draft Management Letter
                            September 30, 2012




                                                                             1300 PennsylvmJ;!' Avenue NW
                                                                             Washington. DC 20 22 9



                                                                             us. Customs and
                                                                             Border Protection

    FEB 1 5 2013

MEMORANDUM FOR:               Anne L. Richards
                              As.... ista nt Inspector General for Aud its
                              Department of Homeland Security

FROM:                         Deborah 1. Schill ing
                              Chief financial Officer
                              U.S. Customs and Border Protection

SUBJECT:                      Management Response to CDP 's FY 20 12 Consulidated Financial
                              Stateme nts Management Letter Report

T hank you fo r the oPJX'rtunilY to review and comment on this report. U. S. Customs and Border
Protection (CBP) ha.s reviewed and concurs wi th all weaknesses contai ned in the report. CBP
will continue to work toward th e resolu tion of the audi tor identified weaknesses.

I want to thank you for your e fforts and louk forward to continuing o ur professional auditing
relationship. If you have any questions or would like additional informat ion, please contact me
at (202) 344-2300, or have a member of your staff may conlac t Ms. Jaye.\1. Will iams, Executive
Director. Financial Operati ons Directorate. at (202) 344-2364.




Deborah J. Schilling

Attachments




                                                   18

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                            


Appendix D
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
Chief Financial Officer
Chief Information Officer

U.S. Customs and Border Protection

Commissioner
Chief Financial Officer
Chief Information Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  19                     OIG-13-48 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
